                 OFFICE OF THE SPECIAL INSPECTOR GENERAL
                     TROUBLED ASSET RELIEF PROGRAM
                            1500 Pennsylvania Ave., N.W., Suite 1064
                                   Washington, D.C. 20220



                                        February 5, 2009



(Addressee)

The Emergency Economic Stabilization Act of 2008 (“EESA”) that established the Troubled
Asset Relief Program (TARP) also created the Office of the Special Inspector General Troubled
Asset Relief Program (SIGTARP). SIGTARP is responsible for coordinating and conducting
audits and investigations of any program established by the Secretary of the Treasury under the
act. As part of an audit into TARP recipients’ use of funds and their compliance with EESA’s
executive compensation requirements,

I am requesting that you provide my office, within 30 days of this request, the following
information:

               (1) A narrative response specifically outlining (a) your anticipated use of TARP
                   funds; (b) whether the TARP funds were segregated from other institutional
                   funds; (c) your actual use of TARP funds to date; and (d) your expected use of
                   unspent TARP funds. In your response, please take into consideration your
                   anticipated use of TARP funds at the time that you applied for such funds, or
                   any actions that you have taken that you would not have been able to take
                   absent the infusion of TARP funds.

               (2) Your specific plans, and the status of implementation of those plans, for
                   addressing executive compensation requirements associated with the funding.
                   Information provided regarding executive compensation should also include
                   any assessments made of loan risks and their relationship to executive
                   compensation; how limitations on executive compensation will be
                   implemented in line with Department of Treasury guidelines; and whether any
                   such limitations may be offset by other changes to other, longer-term or
                   deferred forms of executive compensation.
February 5, 2009
Page 2
 

In connection with this request:

                  (1) We anticipate that responses might well be quantitative as well as qualitative
                      in nature regarding the impact of having the funds, and we encourage you to
                      make reference to such sources as statements to the media, shareholders, or
                      others concerning your intended or actual use of TARP funds, as well as any
                      internal email, budgets, or memoranda describing your anticipated use of
                      funds. We ask that you segregate and preserve all documents referencing
                      your use or anticipated use of TARP funds such as any internal email,
                      budgets, or memoranda regarding your anticipated or actual use of TARP
                      funds.

                  (2) Your response should include copies of pertinent supporting documentation
                      (financial or otherwise) to support your response.

                  (3) Further, I request that, your response be signed by a duly authorized senior
                      executive officer of your company, including a statement certifying the
                      accuracy of all statements, representations, and supporting information
                      provided, subject to the requirements and penalties set forth in Title 18,
                      United States Code, Section 1001.

                  (4) Responses should be provided electronically within 30 days to SIGTARP at
                      SIGTARP.response@do.treas.gov with an original signed certification and
                      any other supporting documentation mailed to: Special Inspector General –
                      TARP; 1500 Pennsylvania Avenue, NW; Suite 1064; Washington, D.C.
                      20220.

We think this initiative is vital to providing transparency of the TARP program, and to the ability
of SIGTARP and others to assess the effectiveness of TARP programs over time. If you have
any questions regarding this initiative, please feel free to contact Mr. Barry W. Holman, my
Deputy Inspector General for Audit at (202) 927-9936.

                                                      Very truly yours,




                                                      Neil M. Barofsky
                                                      Special Inspector General

                                                                                       OMB Control No. 1505-0212
                                                                                           (Expires August 2009)

An agency is not authorized to conduct, and persons are not required to respond to, an information collection request
unless it displays a valid control number. Response is mandatory for all selected participants in the TARP program.
